No.

Supreme Court, U.S.
FILED

MAY 1 1 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

MARCUS WILLIAMS.

— PETITIONER

(Your Name)
»

vs.
STATE OF CALIFORNIA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

CALIFORNIA SUPREME COURT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Marcus Williams
(Your Name)

P.O. Box 8457
(Address)

Lancaster, California 93539
(City, State, Zip Code)

RECEIVED
(Phone Number)

MAY 2 A 2021

9f,Sg#AFcT55@BsK

QUESTION PRESENTED FOR REVIEW

1. What degree of formality is necessary before hearsay statements contained
within a forensic testing report which connect an accused to the testing
results are considered "testimonial"?

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF AUTHORITIES CITED
CASES

Bullcoming v. New Mexico (2011) 564 U.S. 647
Crawford v. Washington (2004) 541 U.S* 36
Davis v. Washington (2006) 547 U.S. 813
Melendez-Diaz v. Massachusetts (2009) 557 U.S. 305
Strickland v. Washington (1984) 466 U.S. 668
Williams v. Illinois (2011) 567 U.S. 50
People v. Lopez (2012) 55 Cal.4th 569
People v. Sanchez (2016) 63 Cal.4th 665, 670-671
People v. McCary (1985) 166 Cal.App.3d 1,8
People v* Lewis (1975) 13 Cal.3d 349 , 358

STATUTES AND RULES
1271

OTHER

Sixth Amendment Right to Effective Assistance
Sixth Amendment Confrontation Rights

PAGE NUMBER

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

-Court of Appeal Opinion

APPENDIX B ---Gabriel Bassan Attorney Letter
APPENDIX C —Declaration of Marcus Williams/
APPENDIX D —Court of Appeal/Supreme Court Order
APPENDIX E
APPENDIX F

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: __________ __
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[*] For cases from state courts:
The date on which the highest state court decided my case was V 11 -*^021
A copy of that decision appears at Appendix £>
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. Fundamental-fairness Constitutional provisions
2. Sixth Amendment Right to Effestive Assistance
3. Sixth Amendment Confrontation Rights

STATEMENT OF THE CASE

A jury found defendant Marcus D. Williams guilty of assault with a
semiautomatic pistol and unlawful possession of a firearm, and found true
defendant personally used a firearm during the commission of the assault. The
trial court further found true a prior strike allegation. Defendant was
sentenced to 27 years to life plus a consecutive 14 years.
On appeal, defendant raises several ineffective assistance of counsel
arguments, argues the trial court erred in finding his prior juvenile
conviction constituted a strike, and asserts his one-year enhancement under
Penal Code section 667.5 must be striken. He further asserted the cumulative
effect of the errors in this case deprived him of due process and his right to
a fair trial. The People concede the one-year enhancement must be striken
because it was dismissed prior to judgment but assert defendant's remaining
contentions have not merit. The Petitioner disagreed and sought a Petition for
Review in the California Supreme Court, and the question presented for review
was "what degree of formality is necessary before hearsay statements contained
within a forensic testing report which connect an accused to the testing
results are considered "testimonial"?
The Petitioner accept the People's concession to strike the one-year
enhancement. In all other respects, the California Supreme Court affirm.

REASONS FOR GRANTING THE PETITION

The United States Supreme Court has held that the Sixth Amendment's
confrontation right bars the admission at trial of testimonial hearsay
statements unless the declarant is unavable to testify and the defendant had a
prior opportunity for cross-examination* (Crawford v. Washington (2004) 541
U.S. 36, 59.)
In People v. Lopez (2012) 55 Cal.4th 569 (Lopez) was based on an unreasonable
determination of the facts, this Court considered whether the inclusion of a
defendant's name in a chart entitled "chain of custody log sheet" in?a report,
which was the sole link between blood test results and the defendant at trial,
constituted testimonial hearsay. (Id. at 582, 584.) In holding that the notations
in the chart were not made with sufficient solemnity to constitute a testimonial
statement, the opinion first cited the informality of the notations themselves. (Id.
at 584.) Neither the testing analyst or the laboratory assistantewhose initials
appeared in the chart signed, certified, or swore to the truth of the page. (Id.)
Second, the chart showed only minimal entries under various categories of
the chart and the chart itself was labeled "FOR LAB USE ONLY." (id.) Based upon
these facts the presumption of correctness was rebutted, Lopez found that
the notations were "not prepared with the formality required by the high court
for testimonial statements" (Id.)
The Lopez holding was fact-dependent. Petitioner case turn on the fact that
an expert not ^nobyprepared with the formality required by Crawford v. Washington
can be used just to save the States money. It's saying that someone could
practice law without a bar card. That's funny but lacks any foundation from
with to draw a rational inference of guilt beyound a reasonable doubt. Review

is necessary to provide State Court's with a Crawford v. Washington (2004)
541 U.S. 36 , 59 set of principloes by which to determine whether a specific
portion of a forensic report is sufficiently "formal" to trigger Confrontation
Clause concerns.
Petitioner is entitled to an evidentiary hearing on this critical fact
of ' 'Fundamental-Fairness" because the law^holds that it is unreasonable for a
State court to resolve credible, disputed issues of material fact without holding
an evidentiary hearing or resolving the dispute on the basis of sworn declarations.
See, Taylor v. Maddox, 366 F.3d 992 (9th Cir. 2004). Similarly, State court
factual findings are not entitled to a presumption of correctness when the State
court fact-finding procedure was fundamentally flawed. Hurles v. Ryan, 752
F.3d 768 (9th Cir. 2014).
/
/
/
/
/
/
/
/
/
/
/
/
/
/
/
/

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: May 11^2021

DECLARATION OF MARCUS WILLIAMS

I, MARCUS WILLIAMS, declare under penalty of perjury of the laws of the
United States of America that the following is true aid correct:
1. I am not a deputy attorney general with the California Attorney General's
Office and not admitted before the state courts of California and the United
States Supreme Court. I represent Petitioner in this case, People v. Marcus
Williams Court of Appeal Case No. C090246, Sacramento County Case No. 18FEG01615.
2. On March 17,2021, I requested a copy of the California Supreme Court
"Order" from Gabriel Bassan so I can prepare a Cert, to March 29,2021, he noted
that the California Supreme Court did not issue an opinion when it denied our
petition for review. See, Attorney Letter Appendix B. I contact him again with
no luck.
3. Later, I contact the California Supreme Court requesting a copy of the
"Order" to file Cert. I met them with negative results.
4. to February 17,2021, the California Supreme Court denied my "Petition
for Review." On the court's own motion, the remittitur issued January 22,2021,
was ordered recalled because a petition for review Was pending. See, Court of
Appeal Order.
Executed this 10th day of May, 2021 at Los Angeles, California.

/s/
MARCUS WILLIAMS
Attorney for Petitioner

